  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General



     Review of DHS Security Controls for 

          Portable Storage Devices 





OIG-08-95                     September 2008
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     September 26, 2008

                                         Preface

The Department of Homeland Security, Office of Inspector General, was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

The report identifies measures that can be taken by the Department of Homeland Security
to minimize the risk of theft, mishandling of the department’s sensitive information, or
unauthorized use of portable storage devices. It is based on interviews with employees
and officials of relevant agencies and institutions, direct observations, discovery scans,
and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 

  Unauthorized Devices Have Been Connected to DHS Systems.....................................4 

  Recommendations...........................................................................................................5 

  Management Comments and OIG Analysis ...................................................................5 


    Security Policies Should Be Implemented......................................................................6 

    Recommendation ............................................................................................................8 

    Management Comments and OIG Analysis ...................................................................8 


    Implementation of OMB-Required Controls Can Minimize Risk..................................9 

    Recommendation ..........................................................................................................10

    Management Comments and OIG Analysis .................................................................10 


Appendices
   Appendix A: Purpose, Scope, and Methodology..........................................................11 

   Appendix B: Management Comments to the Draft Report .........................................12 

   Appendix C: Major Contributors to this Report ..........................................................17 

   Appendix D: Report Distribution.................................................................................18 


Abbreviations
     CBP                 Customs and Border Protection 

     CIS                 Citizenship and Immigration Services 

     DHS                 Department of Homeland Security 

     FEMA                Federal Emergency Management Agency 

     FIPS                Federal Information Processing Standards 

     FLETC               Federal Law Enforcement Training Center 

     I&A                 Intelligence and Analysis         

     ICE                 Immigration and Customs Enforcement 

     NPPD                National Protection and Programs Directorate 

     OMB                 Office of Management and Budget 

     S&T                 Science and Technology          

     TSA                 Transportation Security Administration         

     USB                 Universal Serial Bus 

     USCG                United States Coast Guard 

     USSS                United States Secret Service





                             Review of DHS Security Controls for Portable Storage Devices
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 We evaluated the use of portable storage devices at the Department
                 of Homeland Security (DHS). Our objective was to determine
                 whether DHS has addressed the emerging security threat from the
                 proliferation of portable storage devices. We also followed-up on
                 the actions DHS has taken in response to Office of Management
                 and Budget (OMB) Memorandum 06-16 (M-06-16), Protection of
                 Sensitive Agency Information. The proliferation and uncontrolled
                 use of portable storage devices (e.g., flash drives, external hard
                 drives, and portable music players) increases the risk of theft and
                 mishandling of sensitive information when users insert their
                 personal or unauthorized devices into their agencies’ computers’
                 Universal Serial Bus (USB) or FireWire ports.

                 DHS has taken actions to address the threat of the unauthorized
                 access to its sensitive information from the proliferation of
                 portable storage devices. For example, DHS has established
                 policies on the acceptable use of portable storage devices. In
                 addition, DHS is evaluating a technical solution that will encrypt
                 information stored on all recordable media.

                 We determined, however, that the policies developed have not
                 been implemented by the components. Specifically, components
                 do not have a centralized process to procure and distribute portable
                 storage devices to ensure that only authorized devices that meet the
                 technical requirements can connect to its systems. In addition,
                 most components have not identified and do not maintain an
                 inventory of authorized devices. Further, the devices sampled
                 were not properly marked to protect the information stored on
                 these devices from mishandling. Finally, DHS has not
                 implemented all M-06-16 controls, despite the fact that it has been
                 two years since OMB’s milestone has elapsed.

                 We recommend that components identify and establish an
                 inventory of authorized devices; implement controls to ensure that
                 only authorized devices can connect to DHS systems; and perform
                 discovery scans, at least annually, to identify unauthorized devices.
                 Finally, DHS should devote additional resources to implement
                 OMB M-06-16 controls expeditiously. The department’s response

              Review of DHS Security Controls for Portable Storage Devices 


                                         Page 1 

                is summarized and evaluated in the body of this report and
                included, in its entirety, as Appendix B.

Background
                The proliferation and uncontrolled use of portable storage devices
                increase the risk of theft and mishandling of sensitive information.
                This condition is most prevalent when users insert their personal or
                unauthorized devices into a computer’s USB or FireWire ports.
                Examples of portable storage devices include flash drives, pen
                drives, external hard drives, and portable music and video players,
                such as iPods that can also be used to store data. These portable
                devices are small enough to fit into a shirt pocket, relatively
                inexpensive, and can be used to store a large amount of data. The
                features that make these devices popular can also introduce new
                security risks and amplify risks that already existed with floppy
                disks. Shown below are examples of various portable storage
                devices:

                           Portable Storage Devices




                The risks of theft and mishandling of sensitive data stored on
                portable storage devices became more apparent when several
                incidents were reported in 2006. For example, local police in New
                Mexico seized three USB flash drives that contained classified
                government information from the Los Alamos National Laboratory
                at a contract employee’s home. Additionally, stolen U.S. military
                flash drives that contained records about military operations and

             Review of DHS Security Controls for Portable Storage Devices 


                                        Page 2 

                           individual soldiers were found being sold at a street market in
                           Afghanistan.

                           In response to the above and a series of other incidents involving
                           the compromise or loss of sensitive personal information, OMB
                           issued M-06-16, Protection of Sensitive Agency Information. This
                           memorandum recommends measures to compensate for the lack of
                           physical security controls when sensitive information is removed
                           or accessed from outside the agency location. Agencies were
                           required to implement the following measures by August 7, 2006:

                                    •	 Encrypt sensitive data stored on laptop computers and
                                       mobile computing devices
                                    •	 Establish two-factor authentication for remote access
                                       connections
                                    •	 Enable the timeout feature for remote access after 30
                                       minutes of inactivity
                                    •	 Log all data extracts from databases holding sensitive
                                       information, and ensure that copies of extracts made by
                                       users or administrators are erased within 90 days if they
                                       are no longer needed.

                           Fieldwork was performed at Citizenship and Immigration Services
                           (CIS), Customs and Border Protection (CBP), Federal Emergency
                           and Management Agency (FEMA), Federal Law Enforcement
                           Training Center (FLETC), Immigration and Customs Enforcement
                           (ICE), Intelligence and Analysis (I&A), Management Directorate
                           (Management), National Protection and Programs Directorate
                           (NPPD), Science and Technology (S&T), Transportation Security
                           Administration (TSA), United States Coast Guard (USCG), and
                           United States Secret Service (USSS). We performed discovery
                           scans, using USBDetect software,1 to identify whether
                           unauthorized devices had been connected to DHS’ unclassified
                           systems at 11 components and five international airports located in
                           California, Florida, Maryland, and Virginia.2 In addition, we
                           performed scans on selected classified systems at FEMA, I&A,
                           and S&T.




1
  USBDetect is a software tool that was developed by the National Security Agency. The tool gathers data
from the registry on Microsoft Windows machines and reports whether storage devices, such as portable
music and video players, external hard drives, flash drives, jump drives, and thumb drives, etc., have been
connected to the USB ports.
2
  We only evaluated the use of portable storage devices on selected classified systems at I&A.

                        Review of DHS Security Controls for Portable Storage Devices 


                                                   Page 3 

Results of Audit
     Unauthorized Devices Have Been Connected to DHS Systems
                 DHS has implemented an effective process to ensure that only
                 authorized devices are connected to its classified systems.
                 Specifically, system administrators have disabled the USB ports to
                 restrict portable storage devices from connecting to DHS’
                 classified systems. However, DHS has not implemented effective
                 controls to restrict unauthorized devices from being connected to
                 DHS’ unclassified systems.

                 Based on our discovery scans, we identified instances where
                 storage devices and portable music and video players were
                 connected to selected unclassified servers and workstations at the
                 11 component offices included in our testing. Though we could
                 not determine when these devices were connected or whether any
                 sensitive information had been copied to these devices, DHS’
                 controls did not restrict users from connecting unauthorized
                 devices to the department’s unclassified systems.

                 The discovery of unauthorized devices being connected to DHS’
                 information systems is an indication that the controls implemented
                 may not be effective in restricting DHS’ sensitive data from
                 authorized access or theft. Furthermore, while few components
                 (CBP, Management, TSA, USCG, and USSS) performed discovery
                 scans to determine whether unauthorized devices had been
                 connected to their systems, there is no set schedule that outlines the
                 frequency of the scans. Unless effective controls are implemented,
                 increased risks exist for the potential mishandling or misuse of
                 DHS’ sensitive information stored on portable storage devices.

                 According to DHS officials, the department recognized the threats
                 from the proliferation and uncontrolled use of portable storage
                 devices. DHS has recently begun to evaluate a new technical
                 solution, which will automatically encrypt any recordable media
                 (such as USB flash drives, external hard drives, portable music and
                 video players, and CDs/DVDs) that have been inserted into DHS
                 systems. Once the encryption is applied, users can only access
                 sensitive information stored on these devices when they are
                 connected to DHS systems. With the new technical solution, the
                 officials indicated that there would be no need to maintain an
                 inventory of authorized devices or ensure that the devices being

              Review of DHS Security Controls for Portable Storage Devices 


                                         Page 4 

       used meet certain technical specifications. Furthermore, the
       officials said that deploying the new technical solution would be a
       cheaper alternative than purchasing portable storage devices with a
       biometric encryption feature.

       DHS does not have a timeline in implementing the new solution.
       According to the officials, DHS plans to deploy the new solution
       department-wide once its technical evaluation is completed and the
       results are satisfactory. We believe that once the new technical
       solution is implemented, it can minimize the threats of the
       potential mishandling or misuse of DHS’ sensitive information.

Recommendations
We recommend that the Chief Information Officer direct the components’
Chief Information Officers to:

Recommendation #1: Establish a process to ensure that only authorized
portable storage devices can connect to DHS systems. In addition,
awareness training should be provided to users to educate them on the
risks associated with the use of portable storage devices.

Recommendation #2: Implement stringent technical controls to ensure
that unauthorized devices are not connected to DHS systems. Discovery
scans should be performed, at least annually, to identify unauthorized
devices.

Management Comments and OIG Analysis
       DHS concurred with recommendation 1. DHS acknowledged the
       deficiency in its current hardware and network settings that may
       allow users to connect non-approved devices to DHS equipment
       and networks. Additionally, DHS restated its current policy that
       employees and contractors are prohibited from using any
       non-government issued removable media (e.g., USB flash drives)
       or connecting them to DHS equipment and networks or to store
       DHS sensitive information. All DHS-issued USB flash drives
       must be FIPS 197 compliant and have received FIPS 140-2
       validation to protect the information stored on these devices. In
       addition, DHS plans to implement a technical solution with
       Windows Vista and Windows Server 2008. Finally, DHS stated
       that its users are already being educated on the risks associated
       with the use of portable storage devices, as part of the current
       security awareness training.


    Review of DHS Security Controls for Portable Storage Devices

                              Page 5
            We agree that the steps DHS plans to take satisfy this
            recommendation. DHS did not provide an estimated timeframe to
            deploy Windows Vista and Windows Server 2008. DHS’ sensitive
            data continues to be at risk until the department implements an
            effective process to ensure that only authorized portable storage
            devices can connect to its systems. Specifically, the results of
            discovery scans revealed that relying on policy alone does not
            restrict or deter users from connecting their personal music and
            video players (e.g., iPod) to DHS systems. While connecting an
            iPod to a DHS system is a violation of existing DHS policy, it is
            confirmation that a deficiency exists in the department’s current
            hardware and network settings which allows users to connect
            non-approved devices to DHS equipment and networks. It may
            also be an indicator that the current security awareness training
            may not be effective in educating users on the risks associated with
            the use of portable storage devices.

            DHS concurred with recommendation 2. DHS agreed that the use
            of portable storage devices (e.g., USB flash drives) should be
            controlled. Currently, DHS restricts the use of portable storage
            devices through policy, security awareness training, and disabling
            USB ports on workstations. DHS indicated that more stringent
            controls are available through Windows Vista and through Group
            Policy Objects in Microsoft Server 2008. Specifically, a
            deployment of Vista and Server 2008 has the capability to restrict
            USB device installation by Device ID and Device Class. The
            Device ID matches the exact make, model, and revision of the
            device, such as a particular USB drive model and manufacturer.
            Finally, DHS agreed that discovery scans should be performed
            annually to detect unauthorized devices.

            We agree that the steps DHS plans to take satisfy this
            recommendation. DHS should deploy an interim solution to
            restrict the unauthorized use of portable storage devices until
            Windows Vista and Windows Server 2008 are implemented.
            During our review, we determined that USB ports were only
            disabled on some classified workstations.

Security Policies Should Be Implemented
            DHS has developed policies to mitigate the risks associated with
            the use of portable storage devices on both classified and
            unclassified systems. For example, DHS requires that information
            stored on portable storage devices be encrypted in accordance with


         Review of DHS Security Controls for Portable Storage Devices 


                                    Page 6 

                           FIPS 140-2 standards.3 In addition, DHS prohibits the use of
                           personal devices on DHS systems. Furthermore, DHS requires
                           that all recordable media, including authorized portable storage
                           devices, must be properly marked indicating the data’s
                           classification, such as “For Official Use Only (FOUO),” “Secret,”
                           or “Top Secret,” etc.

                           Several major components (CBP, FLETC, ICE, NPPD, TSA, and
                           USCG) have developed policies, which are aligned with DHS’
                           guidance regarding the use of portable storage devices. However,
                           neither DHS nor the components’ policies have been implemented
                           fully. Specifically, we identified:

                                •	 Portable storage devices are authorized for use at 11 of the
                                   12 components visited.4 However, none of these 11
                                   components have established a centralized process to
                                   procure and distribute these devices. A centralized process
                                   is essential to ensure that only devices that meet DHS and
                                   components’ technical requirements are used to process
                                   and store sensitive information.
                                •	 FEMA and I&A prohibit the use of portable storage
                                   devices on their classified systems.
                                •	 CBP, CIS, FEMA, FLETC, ICE, Management, NPPD,
                                   S&T, and USCG did not maintain inventories of authorized
                                   devices. CBP, CIS, ICE, and NPPD indicated that an
                                   inventory was not maintained because the monetary value
                                   for these portable devices was below the threshold. When
                                   an inventory is not maintained, DHS and its components
                                   cannot track the use of these devices or ensure that only
                                   authorized devices are connected to their networks.
                                •	 CIS, FEMA, FLETC, ICE, Management, NPPD, S&T,
                                   USCG, and USSS did not apply “marking” on the devices
                                   sampled to protect sensitive information stored on these
                                   devices from being mishandled. Applying proper marking
                                   can minimize the risks associated with the accidental
                                   disclosure of sensitive data stored on portable storage
                                   devices.

3
  This standard is applicable to all Federal agencies that use cryptographic-based security systems to protect
sensitive information in computer and telecommunications systems. FIPS 140-2, Security Requirements
For Cryptographic Modules, dated May 25, 2001.
4
  We did not evaluate the use of portable storage devices on I&A’s unclassified systems. We only
evaluated the use of these devices on classified systems located in an I&A sensitive compartmented
information facility.

                        Review of DHS Security Controls for Portable Storage Devices 


                                                   Page 7 

       The implementation of specific policies is essential to ensure that
       sensitive information stored on portable storage devices is
       protected from unauthorized use, theft, or mishandling. To protect
       against threats involving potential misuse, it is imperative that
       DHS and its components establish a centralized process to procure
       and distribute portable storage devices, maintain an inventory of
       authorized devices, and apply proper marking to protect
       information stored on these devices from unauthorized disclosure.

Recommendation
We recommend that the Chief Information Officer direct the components’
Chief Information Officers to:

Recommendation #3: Identify the manufacturers and models of
authorized devices. Ensure that an inventory, which contains the names of
manufacturers and serial numbers of devices, is maintained. The devices
should be marked to indicate the data classification to protect sensitive
information stored from unauthorized disclosure or mishandling.

Management Comments and OIG Analysis
       DHS concurred with recommendation 3. DHS stated that an
       inventory of authorized portable storage devices can be established
       under the Windows Vista and Windows Server 2008 environment,
       as the Device ID for all authorized USB devices can be identified.
       However, this capability does not include the identification of
       serial numbers for USB devices. As this solution is not available
       until DHS is operating in a Vista and Server 2008 environment,
       DHS has identified standards for USB flash drives, which requires
       these devices be FIPS 140-2 and FIPS 197 compliant. Finally,
       DHS restated its policy requirement to have appropriate markings
       on storage media.

       We agree that the steps DHS plans to take satisfy this
       recommendation. However, DHS does not plan to establish an
       inventory of its authorized portable storage devices until Windows
       Vista and Windows Server 2008 are implemented. In addition,
       DHS does not plan additional actions to enforce its current policy
       to ensure these devices are properly marked to indicate the data
       classification to protect sensitive information stored from
       unauthorized disclosure or mishandling.



    Review of DHS Security Controls for Portable Storage Devices 


                               Page 8 

        Implementation of OMB-Required Controls Can Minimize Risk
                          In January 2007, we reported that DHS and its components were in
                          the process of implementing OMB’s recommended security
                          controls for sensitive data and personally identifiable information
                          (PII) as outlined in M-06-16.5 During this evaluation, we
                          followed-up on the actions taken to implement these controls at 11
                          components and determined that DHS has not completed the
                          implementation of the required OMB controls to protect its
                          sensitive data from unauthorized access.6

                          The purpose of OMB M-06-16 was to compensate for the lack of
                          physical security controls when sensitive information is removed
                          or accessed from outside the agency location. The implementation
                          of these controls can also minimize the risks of unauthorized
                          access to the sensitive data stored on portable storage devices.

                          Specifically, we identified:

                                   •	 Ten of the 11 components have installed encryption
                                      software to protect sensitive information stored on their
                                      laptops
                                   •	 Seven of the 11 components implemented the session
                                      time-out function which requires users to
                                      re-authenticate after 30 minutes of inactivity
                                   •	 Only 5 of the 11 components have implemented
                                      two-factor authentication7
                                   •	 None of the 11 components tested implemented
                                      effective controls or a reliable process to ensure that
                                      data extracts are erased within 90 days or when no
                                      longer needed.

                          Despite some progress in implementing OMB-required controls,
                          more attention and resources may be needed to ensure that
                          sensitive data stored on laptops and mobile computing devices is
                          protected from unauthorized access. Further, DHS officials need
                          to develop milestones for implementing OMB M-06-16. Until

5
  DHS’s’ Implementation of Protective Measures for Personally Identifiable Information (OIG-07-24,

January 2007). 

6
  We performed fieldwork at 12 components. However, the National Institute of Standards and Technology 

Special Publication 800-53, Recommended Security Controls for Federal Information Systems, controls

outlined in OMB M-06-16 do not apply to I&A’s classified systems. 

7
  Two-factor authentication is a security process in which the user provides two means of identification, 

one of which is typically a physical token, such as a card, and the other of which is typically something 

memorized. 


                       Review of DHS Security Controls for Portable Storage Devices 


                                                  Page 9 

       these controls have been implemented, there is an increased risk
       that sensitive data may be compromised through the loss or theft of
       laptop computers and mobile computing devices.

Recommendation
We recommend that the Chief Information Officer direct the Chief
Information Security Officer to:

Recommendation #4: Devote additional resources to ensure the controls
outlined in OMB M-06-16 are implemented expeditiously.


Management Comments and OIG Analysis
       DHS did not concur with recommendation 4. DHS did not agree
       that the OIG should direct the Chief Information Officer on
       allocating its resources. However, the Chief Information Officer
       acknowledged that resources must be identified to implement these
       controls. DHS indicated that implementation plans were being
       developed based on risks and cost analysis.

       We maintain our position that it has been two years since OMB’s
       mandated milestone has elapsed and that DHS should ensure
       controls outlined in OMB M-06-16 are implemented expeditiously.

       We would note as well that we are not directing anything regarding
       the allocation of resources at DHS. Rather, we are recommending
       that the Chief Information Officer direct the Chief Information
       Security Officer to devote additional resources to implement OMB
       required security controls. It is well within our responsibility,
       when conducting audits, to identify areas where increased
       resources are needed to resolve the deficiency.

       Also, in a final comment, the Chief Information Officer expressed
       concern that the title of the draft report, DHS Must Address the
       Emerging Security Threat from the Proliferation of Portable
       Storage Devices, predisposes readers to think that the department
       has not taken any action in that regard. We agree and have revised
       the title as requested.




    Review of DHS Security Controls for Portable Storage Devices 


                              Page 10 

Appendix A
Purpose, Scope and Methodology


                   Our objective was to determine whether DHS has addressed the
                   emerging security threat from the proliferation of portable storage
                   devices. We also followed-up on the actions DHS has taken in
                   response to Office of Management and Budget (OMB)
                   Memorandum 06-16 (M-06-16), Protection of Sensitive Agency
                   Information.

                   To accomplish our audit, we interviewed selected personnel at
                   CBP, CIS, FEMA, FLETC, ICE, Management, NPPD, I&A, S&T,
                   TSA, USCG, and USSS. In addition, we reviewed and evaluated
                   DHS’ and components’ security policies and procedures regarding
                   the use of portable storage devices. We performed discovery
                   scans, using USBDetect software, to identify whether unauthorized
                   devices had been connected to DHS’ unclassified systems at 11
                   components (CBP, CIS, FEMA, FLETC, ICE, Management,
                   NPPD, S&T, TSA, USCG, and USSS) and five international
                   airports located in California, Florida, Maryland, and Virginia. In
                   addition, we performed scans on selected classified systems at
                   FEMA, I&A, and S&T.

                   We conducted our evaluation between February and May 2008,
                   under the authority of the Inspector General Act of 1978, as
                   amended, and according to the Quality Standards for Inspections
                   issued by the President’s Council on Integrity and Efficiency
                   (PCIE). Major OIG contributors to the audit are identified in
                   Appendix C.

                   The principal OIG points of contact for the audit are Frank Deffer,
                   Assistant Inspector General, Office of Information Technology at
                   (202) 254-4100; and Edward G. Coleman, Director, Information
                   Security Audits Division at (202) 254-5444.




                Review of DHS Security Controls for Portable Storage Devices 


                                          Page 11 

Appendix B
Management Comments to the Draft Report




                Review of DHS Security Controls for Portable Storage Devices 


                                          Page 12 

Appendix B
Management Comments to the Draft Report




                Review of DHS Security Controls for Portable Storage Devices 


                                          Page 13 

Appendix B
Management Comments to the Draft Report




                Review of DHS Security Controls for Portable Storage Devices 


                                          Page 14 

Appendix B
Management Comments to the Draft Report




                Review of DHS Security Controls for Portable Storage Devices 


                                          Page 15 

Appendix B
Management Comments to the Draft Report




                Review of DHS Security Controls for Portable Storage Devices 


                                          Page 16 

Appendix C
Major Contributors to this Report


                    Information Security Audit Division

                    Edward Coleman, Director
                    Chiu-Tong Tsang, Audit Manager
                    Mike Horton, Information Technology Officer
                    Barbara Bartuska, Audit Manager
                    Charles Twitty, Audit Team Leader
                    Nazia Khan, IT Specialist
                    Thomas Rohrback, IT Specialist

                    Melissa Keaster, Referencer




                 Review of DHS Security Controls for Portable Storage Devices

                                           Page 17
Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer
                      Deputy Chief Information Officer
                      Chief Information Security Officer
                      Director, Compliance and Oversight
                      Director, GAO/OIG Liaison Office
                      Chief Information Officer Audit Liaison
                      Chief Information Security Officer Audit Manager

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 Review of DHS Security Controls for Portable Storage Devices 


                                           Page 18 

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
